           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


        SINGLE AUDIT OF THE
        STATE OF MINNESOTA
     FOR THE FISCAL YEAR ENDED
            JUNE 30, 2007

     October 2008   A-77-09-00001




 MANAGEMENT
ADVISORY REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                    SOCIAL SECURITY
MEMORANDUM
Date:   October 2, 2008                                                    Refer To:

To:     Candace Skurnik
        Director
        Audit Management and Liaison Staff

From:   Inspector General

Subject: Management Advisory Report: Single Audit of the State of Minnesota for the Fiscal
        Year Ended June 30, 2007 (A-77-09-00001)


        This report presents the Social Security Administration’s (SSA) portion of the single
        audit of the State of Minnesota for the fiscal year (FY) ended June 30, 2007. Our
        objective was to report internal control weaknesses, noncompliance issues, and
        unallowable costs identified in the single audit to SSA for resolution action.

        The Office of the Legislative Auditor performed the audit. We have not received the
        results of the desk review conducted by the Department of Health and Human Services
        (HHS). We will notify you when the results are received if HHS determines the audit did
        not meet Federal requirements. In reporting the results of the single audit, we relied
        entirely on the internal control and compliance work performed by the Legislative
        Auditor and the reviews performed by HHS. We conducted our review in accordance
        with the Quality Standards for Inspections issued by the President’s Council on Integrity
        and Efficiency.

        For single audit purposes, the Office of Management and Budget assigns Federal
        programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
        Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
        CFDA number 96. SSA is responsible for resolving single audit findings reported under
        this CFDA number.

        The Minnesota Disability Determination Services (DDS) performs disability
        determinations under SSA’s DI and SSI programs in accordance with Federal
        regulations. The DDS is reimbursed for 100 percent of allowable costs. The
        Department of Employment and Economic Development (DEED) is the Minnesota DDS’
        parent agency.
Page 2 – Candace Skurnik

The single audit reported that DEED did not properly restrict staff access to the
personnel and payroll system. In addition, DEED did not have effective controls to
detect errors on employees’ timesheets and travel reimbursement claims (Attachment,
page 1). The corrective action plan indicated that DEED will eliminate unnecessary
access to personnel and payroll functions and implement new processes to improve the
review of timesheets and travel reimbursements (Attachment, page 2).

We recommend that SSA:

1. Ensure that DEED implemented procedures to limit inappropriate access to payroll
   and personnel functions.

2. Verify that DEED implemented controls to ensure timesheets and travel
   reimbursement claims are accurate.

Please send copies of the final Audit Clearance Document to Shannon Agee. If you
have questions contact Shannon Agee at (816) 936-5590.



                                             S
                                             Patrick P. O’Carroll, Jr.

Attachment
Attachment
Page 1 of 2
Attachment
Page 2 of 2
                     Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of
Investigations (OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations
(OER), and Office of Technology and Resource Management (OTRM). To ensure compliance with
policies and procedures, internal controls, and professional standards, the OIG also has a comprehensive
Professional Responsibility and Quality Assurance program.
                                            Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs
and operations and makes recommendations to ensure program objectives are achieved effectively and
efficiently. Financial audits assess whether SSA’s financial statements fairly present SSA’s financial
position, results of operations, and cash flow. Performance audits review the economy, efficiency, and
effectiveness of SSA’s programs and operations. OA also conducts short-term management reviews and
program evaluations on issues of concern to SSA, Congress, and the general public.
                                       Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and
operations. This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA
employees performing their official duties. This office serves as liaison to the Department of Justice on
all matters relating to the investigation of SSA programs and personnel. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.
                        Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative
material. Also, OCIG administers the Civil Monetary Penalty program.
                                    Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news
releases and in providing information to the various news reporting services. OER develops OIG’s media
and public information policies, directs OIG’s external and public affairs programs, and serves as the
primary contact for those seeking information about OIG. OER prepares OIG publications, speeches, and
presentations to internal and external organizations, and responds to Congressional correspondence.
                       Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also
coordinates OIG’s budget, procurement, telecommunications, facilities, and human resources. In
addition, OTRM is the focal point for OIG’s strategic planning function, and the development and
monitoring of performance measures. In addition, OTRM receives and assigns for action allegations of
criminal and administrative violations of Social Security laws, identifies fugitives receiving benefit
payments from SSA, and provides technological assistance to investigations.
